       OFFICE OF JUSTICE PROGRAMS,
EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE
  GRANTS AWARDED TO THE CITY OF ATLANTA,
                 GEORGIA




         U.S. Department of Justice
       Office of the Inspector General
                Audit Division


        Audit Report GR-40-10-005
                July 2010
 OFFICE OF JUSTICE PROGRAMS, EDWARD BYRNE MEMORIAL
              JUSTICE ASSISTANCE GRANTS
       AWARDED TO THE CITY OF ATLANTA, GEORGIA


                         EXECUTIVE SUMMARY

      The Department of Justice (DOJ) Office of the Inspector General,
Audit Division, has completed an audit of Edward Byrne Memorial
Justice Assistance Grants (Byrne JAG), including a 2009 Recovery Act
grant, awarded by the Office of Justice Programs (OJP), Bureau of
Justice Assistance (BJA), to the City of Atlanta, Georgia.

      The purpose of the Byrne JAG program is to allow local
governments to support a broad range of activities to prevent and
control crime based on their local needs and conditions. Grant funds
may be used for law enforcement; prosecution and courts; crime
prevention and education; corrections; drug treatment; planning,
evaluating, and implementing technology improvement programs; and
crime victim and witness programs. As shown in Exhibit 1, the City of
Atlanta was awarded $9,247,498 under the Byrne JAG program since
2006.

        Exhibit 1: Edward Byrne Memorial Justice Assistance
                Grants Awarded to the City of Atlanta
                            Start       End        Award
         Grant Number
                            Date       Date        Amount
         2006-DD-BX-0266      09/11/2006     08/08/2008     $197,446
         2006-DJ-BX-0616      05/05/2006     09/30/2009     $895,454
         2007-DJ-BX-0307      08/31/2007     09/30/2010   $1,196,710
         2007-DD-BX-0611      09/13/2007     03/31/2009     $550,000

         2008-DJ-BX-0363      08/26/2008     09/30/2011     $373,359
         2008-DD-BX-0492      09/11/2008     08/31/2010     $380,098

         2009-SB-B9-1100
                              06/17/2009     02/28/2013   $5,654,431
         (Recovery Act)

                                    Total                 $9,247,498
        Source: Office of Justice Programs

Recovery Act

     In February 2009, Congress passed the American Recovery and
Reinvestment Act (Recovery Act) to help create jobs, stimulate the
                                       i
economy and investment in long term growth, and foster
accountability and transparency in government spending. The
Recovery Act provided $787 billion for tax cuts, education, health care,
entitlement programs, contracts, grants, and loans. Recipients of
Recovery Act funds are required to report quarterly to
FederalReporting.gov on how they spend their Recovery Act funds and
the number of jobs created or saved. The DOJ received $4 billion in
Recovery Act funds and made almost $2 billion of that funding
available through the Byrne JAG Program.

Audit Results

      The purpose of the audit was to determine whether the City of
Atlanta used grant funds for costs that were allowable, supported, and
in accordance with applicable laws, regulations, guidelines, and terms
and conditions of the grants; met or were meeting the goals outlined
in the grant programs and applications; and timely and accurately
reported Recovery Act spending and job data to FederalReporting.gov.

       We tested whether the city complied with essential grant
conditions pertaining to: (1) internal controls, (2) drawdowns,
(3) grant expenditures, (4) budget management and control,
(5) supplanting, (6) matching costs, (7) property management,
(8) program income, (9) financial status and progress reports,
(10) Recovery Act requirements, (11) program performance and
accomplishments, and (12) monitoring of subrecipients. We
determined that program income was not applicable to this grant.

       We found that the City of Atlanta:

   •   did not have adequate staff with the training and experience to
       properly manage the grants,

   •   incorrectly reported the number of jobs created or saved to
       FederalReporting.gov,

   •   charged $191,161 in unsupported and unallowable costs to grant
       funds,


   •   did not submit or submitted late to OJP some financial and grant
       progress reports,

   •   did not meet or could not show that it met grant goals and
       objectives, and

                                    ii
   •   did not monitor and had no procedures for monitoring
       subrecipients to ensure they met or will meet the fiscal and
       programmatic requirements of the grants.

      Because of these weaknesses, we are concerned that the City of
Atlanta may not be able to properly manage the $16.9 million it has
been awarded under the 2009 Recovery Act. 1

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope,
and methodology appear in Appendix 1.




       1
            The City of Atlanta was awarded $5.7 million under the Byrne JAG Recovery
Act program and $11.2 million by the Office of Community Oriented Policing Services
under the COPS Hiring Recovery Program (CHRP). The purpose of the CHRP grant was
to hire or retain 50 police officers. We did not audit the CHRP grant.
                                         iii
                              TABLE OF CONTENTS

INTRODUCTION.. ...................................................................... 1
     Recovery Act .........................................................................2
     Background...........................................................................2
     Audit Approach ......................................................................3
FINDINGS AND RECOMMENDATIONS ....................................... 5
     Internal Controls ...................................................................5
     Drawdowns ...........................................................................8
     Budget Management and Control .............................................8
     Supplanting ..........................................................................8
     Grant Expenditures .............................................................. 10
     Matching Costs .................................................................... 13
     Accountable Property ........................................................... 13
     Grant Reporting ................................................................... 14
     Program Performance and Accomplishments ........................... 19
     Monitoring of Subrecipients ................................................... 22
     Conclusion .......................................................................... 23
     Recommendations ............................................................... 24
APPENDIX 1 – OBJECTIVES, SCOPE, AND METHODOLOGY ..... 26
APPENDIX 2 – SCHEDULE OF DOLLAR-RELATED FINDINGS ... 28
APPENDIX 3 – UNALLOWABLE AND UNSUPPORTED OTHER
             DIRECT COSTS ................................................ 29
APPENDIX 4 – THE CITY OF ATLANTA'S RESPONSE TO THE
             DRAFT AUDIT REPORT .................................... 31
APPENDIX 5 – OJP'S RESPONSE TO THE DRAFT AUDIT
             REPORT .......................................................... 34
APPENDIX 6 – ANALYSIS AND SUMMARY OF ACTIONS
             NECESSARY TO CLOSE THE REPORT................ 38
                                INTRODUCTION

       The Department of Justice (DOJ) Office of the Inspector General,
Audit Division, has completed an audit of Edward Byrne Memorial Justice
Assistance Grants (Byrne JAG), including a 2009 Recovery Act grant,
awarded by the Office of Justice Programs (OJP), Bureau of Justice
Assistance (BJA), to the City of Atlanta, Georgia. The Byrne JAG Program
is the primary source of federal criminal justice funding for state and local
jurisdictions. The Byrne JAG Program allows states, tribes, and local
governments to support a broad range of activities to prevent and control
crime based on their own local needs and conditions. Grant funds may be
used for:

   •   law enforcement programs,

   •   prosecution and court programs,

   •   prevention and education,

   •   corrections and community corrections programs,

   •   drug treatment programs,

   •   technology improvement programs, and

   •   crime victim and witness programs.

      As shown in Exhibit 2, since 2006, OJP has awarded the City of
Atlanta $9,247,498 to implement these activities.

       Exhibit 2: Edward Byrne Memorial Justice Assistance Grants
                       Awarded to the City of Atlanta
                              Award         Award       Award
               Grant
                            Start Date     End Date    Amount
        2006-DD-BX-0266     09/11/2006 08/08/2008        $197,446
        2006-DJ-BX-0616     05/05/2006 09/30/2009        $895,454
        2007-DJ-BX-0307     08/31/2007 09/30/2010     $1,196,710
        2007-DD-BX-0611     09/13/2007 03/31/2009        $550,000
        2008-DJ-BX-0363     08/26/2008 09/30/2011        $373,359
        2008-DD-BX-0492     09/11/2008 08/31/2010        $380,098
        2009-SB-B9-1100
                            06/17/2009 02/28/2013     $5,654,431
        (Recovery Act)
                                       Total             $9,247,498
       Source: Office of Justice Programs

                                            1
Recovery Act

      In February 2009, Congress passed the American Recovery and
Reinvestment Act (Recovery Act) to help create jobs and stimulate the
economy. The Recovery Act provided $787 billion for tax cuts, education,
health care, entitlement programs, contracts, grants, and loans.
Recipients of Recovery Act funds are required to report quarterly to
FederalReporting.gov on how they spent Recovery Act funds and the
number of jobs those funds created or saved. The DOJ received $4 billion
in Recovery Act funds and made almost $2 billion of that funding available
through the OJP Byrne JAG grant program.

Background

       The City of Atlanta and the surrounding metropolitan area has a
population of about 4.1 million people. During FY 2008, the city spent
$87.5 million in federal awards. Two of the grants we audited were based
on a joint application between the City of Atlanta and other local units of
government.

       For the Recovery Act grant, the City of Atlanta submitted a joint
application with Fulton County, and the Cities of Alpharetta, College Park,
East Point, Fairburn, Hapeville, Roswell, and Union City. The nine
applicants agreed the City of Atlanta would submit the joint application for
funding, and the City of Atlanta would receive 5 percent of the total award
amount to administer the grant. The applicants also agreed to pay
Fulton County 23 percent of their respective shares of the award to pay for
the costs of prosecuting their criminal cases. The $5.7 million in Recovery
Act funds were to be distributed as shown in Exhibit 3.




                                   2
                                  Exhibit 3:
                      Recipients of Recovery Act Funds
                       Awarded to the City of Atlanta
                           Recipient                 Amount
                    City of Atlanta                   $3,470,633
                    Fulton County                      1,633,633
                    City of Eastpoint                    168,497
                    City of College Park                 142,113
                    Union City                            73,151
                    City of Roswell                       71,894
                    City of Alpharetta                    48,721
                    City of Hapeville                     26,524
                    City of Fairburn                      19,265
                       Total                         $5,654,431
                  Source: Office of Justice Programs

       The City of Atlanta planned to use its share of Recovery Act grant
funds to hire a Project Administrator to manage the grant and fund 46
sworn police officer positions. 2 As the primary recipient of the grant, the
city is responsible for monitoring subrecipients’ compliance with applicable
laws, regulations, guidelines, grant conditions, spending, and outcomes
and benefits attributed to the use of grant funds.

Audit Approach

      The purpose of this audit was to determine whether the City of
Atlanta and subrecipients: (1) used grant funds for costs that were
allowable, supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grants; (2) met or were
meeting the goals outlined in the grant programs and applications; and
(3) timely and accurately reported their Recovery Act spending and job
data to FederalReporting.gov.

      We tested compliance with what we consider to be the most
important conditions of the grants. Unless otherwise stated in our report,
the criteria we audit against are contained in the grant award documents,
OJP Financial Guide, Code of Federal Regulations (CFR), Office of
Management and Budget (OMB) Circulars, and the Recovery Act. We
tested the City of Atlanta’s:


       2
           The City of Atlanta was also awarded $11.2 million by the Office of Community
Oriented Policing Services (COPS) under the COPS Hiring Recovery Program (CHRP) to hire
or retain 50 police officers. We did not audit the CHRP grant.
                                           3
  •   internal controls to identify plans, policies, methods, and
      procedures adopted by the City of Atlanta to meet its missions,
      goals, and objectives;

  •   grant drawdowns to determine whether grant drawdowns were
      adequately supported and if the City of Atlanta was managing grant
      receipts in accordance with federal requirements;

  •   budget management and control to identifying any budget
      deviations between the amounts budgeted and the actual costs for
      each cost category;

  •   supplanting to determine whether the City of Atlanta supplanted
      local funds with federal funds;

  •   grant expenditures to determine the accuracy and allowability of
      costs charged to the grant;

  •   matching costs to determine if the City of Atlanta provided the
      required matching share of grant costs from local sources;

  •   property management to determine if property acquired with
      federal funds is adequately protected from loss, and the grantee’s
      records indicate the percentage of federal participation in the cost of
      the property;

  •   financial status and progress reports to determine if the
      required Financial Status Reports and Progress Reports were
      accurate and submitted timely;

  •   grant objectives and accomplishments to determine if the City
      of Atlanta met or is capable of meeting the grant goals and
      objectives; and

  •   monitoring of subrecipients to determine whether the City of
      Atlanta took appropriate steps to ensure that subrecipients complied
      with applicable grant requirements.

      In conducting our audit, we performed sample testing in the areas of
grant expenditures; property management; financial, progress, and
Recovery Act reports; grant objectives and accomplishments; and
management of subrecipients.

                                    4
                 FINDINGS AND RECOMMENDATIONS

      Our audit determined that the City of Atlanta: (1) did not have
      adequate staff with the training and experience to properly
      manage the grants; (2) charged unallowable and unsupported
      costs to grant funds; (3) did not submit or submitted late, some
      financial and grant progress reports; (4) did not achieve or could
      not show that it achieved program goals and objectives; and
      (5) did not monitor and had no procedures for monitoring
      subrecipients of grant funds. As a result of these deficiencies,
      we question $191,161 in grant funds and make five
      recommendations for improvement.

Internal Controls

       We reviewed the City of Atlanta’s financial management system,
policies and procedures, and Single Audit Reports to assess the risk of
non-compliance with laws, regulations, guidelines, and terms and
conditions of the grants. We also interviewed individuals responsible for
several areas, such as payroll, purchasing, and accounts payable, and we
observed accounting and grant management activities to further assess
risk.

Financial Management System

       The City of Atlanta uses commercial software for its financial
management system and appears to have an adequate system of internal
controls to ensure compliance with applicable requirements of the grant
programs we audited. The system of financial controls appears to provide
adequate separation of duties, separate accounting for each grant, and
traceability to supporting documentation. However, during our review of
the financial controls we found a significant weakness in the city’s ability
to properly manage the grants.

Personnel

       We found that the City of Atlanta did not have sufficient staff with
the training and experience to properly manage the grants. The Grant
Analyst who prepares the grant progress reports told us that she had only
been on the job for 1 month and was “learning by doing.” An Atlanta
Police Officer told us that there had been excessive turnover in the Grant
Analyst position and, until recently, the position had been vacant for over
2 years. During the time the position was vacant, the police officer
                                     5
prepared the grant progress reports when he was instructed to do so by
his supervisor because funding was being withheld by OJP. The officer
told us that he was not familiar with the procedures for administering
grants and did not know when reports were due. We found that grant
progress reports were still being submitted under the name of a Police
Department employee who left the position in 2007. The officer who
submitted the most recent reports we reviewed told us that he did not
attempt to submit the reports under his own name.

       The Senior Budget Manager at the Police Department submits grant
expense reports to the city’s Office of Grants where staff review those
reports, prepare Financial Status Reports (FSRs), and draw down grant
funds from OJP. At the start of our audit, the Senior Budget Manager had
only been on the job for 5 months. As discussed later in this report, some
grant expenses reimbursed to the City of Atlanta were unallowable.

       Because the city did not have a sufficient number of staff with the
training and experience to manage the grants, some planned grant
activities were never started and grant reports were not submitted or were
submitted late. For three grants, no grant funds had been drawn down in
over 14 months.

       We asked City of Atlanta officials about their staffing issues. One
official told us that in 2007, the Police Department reorganized to balance
the budget and eliminated civilian and sworn personnel positions, which
adversely affected the department’s operations. The effects that the
shortage of trained and experienced staff had on the management of the
grants are described in detail throughout this report.

Single Audit

      According to Office of Management and Budget (OMB)
Circular A-133, the City of Atlanta is required to have a Single Audit
performed annually with the report due no later than 9 months after the
end of the fiscal year. The City of Atlanta’s fiscal year is from
July 1 through June 30. The City of Atlanta’s 2009 Single Audit report
was issued timely on December 30, 2009. The audit report stated that
the City of Atlanta is “not a low-risk auditee.”

       The following audit findings reported in the FY 2009 Single Audit,
could affect DOJ grants.



                                   6
  •   Finding 09-8 – “Effective internal controls require the monitoring of
      the status of action items in outstanding internal and external audit
      reports. Currently, the extent of outstanding action items from both
      the external and internal auditors merit definitive plans and
      resources to ensure corrective action steps are taken on a more
      timely basis, particularly in areas that would improve and enhance
      internal controls over financial reporting and safeguarding City
      assets.”

  •   Finding 09-9 – “Grant schedules provided for the audit by Grant
      Accounting relating to grant receivables and related revenue did not
      agree to the general ledger balances. Timely review and
      reconciliation between general ledger and the subsidiary ledger
      accounts were not performed. Additionally, we noted that the city
      had received reimbursement for recorded grant receivables, or had
      expended cash that was received in advance for grant projects but
      had not made the necessary adjustments to reflect the
      transactions.”

  •   Finding 09-14 – “The city did not have adequate controls in place
      to identify federal grants that were passed through state agencies.
      Absence of such controls result in reporting incomplete grant
      information in the schedule of federal expenditures, and improper
      determination of major programs.”

      Below are the City of Atlanta’s responses to the FY 2009 Single Audit
findings.

  •   Finding 09-8 – “The City will continue to identify the most effective
      ways to monitor any corrective action items from internal and
      external sources and ensure the implementation of the corrective
      efforts are completed.”

  •   Finding 09-9 – “Procedures are being implemented within the
      Controller’s Office to ensure the grant funds are monitored and
      receivables are reviewed to ensure proper accounting is taking
      place. As for operational receivables, the focus for the first part of
      FY 2010 was to ensure we had timely and accurate Revenue and
      Expense reports to allow all major funds within the city to
      understand their actual performance during the year.”

  •   Finding 09-14 – “In prior years, the state did not clearly
      distinguish federal grant funds passed on to the city as being federal
                                    7
      grant dollars. Receiving departments were therefore not recognizing
      these funds as federal grants, but instead as state grants. The state
      is now identifying, via a Grant Award Letter, whether funds are
      federal or state related. The city is ensuring all funds received are
      appropriately recorded as either federal or state.”

Drawdowns

      The OJP Financial Guide, Part III, Chapter 1, requires that recipients
time their drawdown requests to ensure that federal cash-on-hand is the
minimum needed for disbursements to be made immediately or within a
few days. For Byrne JAG grants, recipients may draw down any or all
grant funds in advance of grant costs. However, the recipients must
establish a trust fund in which to deposit the drawdowns.

       All of the grants we audited were awarded under the Byrne JAG
Program, thus we did not test whether the city had excess federal cash-
on-hand for those grants. However, for Grant Number 2006-DJ-BX-0616,
the city drew down the entire $895,454 award amount in February 2007.
We confirmed that the funds were deposited into a bank account.

Budget Management and Control

      The OJP Financial Guide, Part III, Chapter 5, states that when the
cumulative changes in approved budget categories exceed 10 percent of
the total award amount or change the scope of the project, prior approval
from the awarding agency is required. However, the 10-percent rule is
not applicable to the grants we audited. Grantees may use Byrne JAG
funds for any of the general purposes of the grant program.

Supplanting

      According to 42 U.S.C. § 3752, federal funds may not be used to
supplant local funds, but must be used to increase the amount of funds
that would otherwise be made available for law enforcement activities. 3
The OJP Financial Guide, Part II, Chapter 3 states that if there is a
potential presence of supplanting, the grantee will be required to supply




      3
          www.ojp.usdoj.gov/recovery/supplantingguidance.htm

                                       8
documentation demonstrating that the reduction in local resources
occurred for reasons other than the receipt or expected receipt of federal
funds.

       To determine whether the City of Atlanta supplanted local funds
with federal funds, we interviewed city officials and reviewed the City of
Atlanta’s adopted budget for FY 2010.

       Like most municipal governments, the City of Atlanta has
experienced financial troubles in recent years. Since 2008, the city’s
general fund budget has dropped from $645 million to $541 million. In
FY 2010, the city reduced its budget for salaries and overtime for the
Police Department by $6.0 million from FY 2009 levels. The city cut $4.6
million in salaries for 22 sworn and 15 civilian positions and $1.4 million in
overtime costs from its FY 2010 budget. The adopted budget for FY 2010
states that the reduction in salaries resulted from the funding of these
positions by grants. 4 A city official told us that the grant referred to in the
budget was the 2009 Recovery Act grant. The adopted budget for
FY 2010 is shown in Exhibit 4.

                                  Exhibit 4:
                       FY 2010 Adopted Budget for the
               City of Atlanta, Department of Police Services
                    FY 2009     FY 2010         Change            Explanation

Authorized Position Count
  Sworn               1,567        1,545           -22
  Civilian              250          235           -15
    Total             1,817        1,780           -37
Personnel Costs (in millions)
                                                          Reduction due to funding of
  Fulltime Salary      $91.0       $86.3          -$4.6
                                                          positions by grants.
  Overtime               3.5          2.1          -1.4   Funded in FY10 by JAG grant.
                                                          Decrease due to FY09 position
  Pension               49.5        36.0          -13.6   reductions and reduction in
                                                          pension rate.
   Total              $158.8     $139.7       -$19.1
Source: City of Atlanta, FY2010 Adopted Budget



        4
           The City of Atlanta was awarded $5.7 million under the Byrne JAG Recovery Act
program and $11.2 million by the Office of Community Oriented Policing Services (COPS)
under its COPS Hiring Recovery Program (CHRP). The purpose of the CHRP grant was to
hire or retain 50 police officers.
                                            9
        Although the budget states that the city reduced its budget because
of the expected receipt of federal funds, the city has also demonstrated
that, like other municipal governments, it has experienced declining
revenues and laid off hundreds of workers. We concluded that local
funding for law enforcement has been reduced, but not because of the
availability or anticipated availability of Recovery Act Byrne JAG funds.
Therefore, it appears that supplanting has not occurred.

Grant Expenditures

       According to the OJP Financial Guide, Part III, Chapter 7, allowable
costs are those identified in Office of Management and Budget (OMB)
circulars and the grant program’s authorizing legislation. In addition,
costs must be reasonable and permissible under the specific guidance of
the grants. We reviewed a sample of personnel and other direct costs
charged to each grant and found that the City of Atlanta charged
unallowable and unsupported costs to grant funds.

Personnel Costs

       Only one of the grants we reviewed had personnel costs paid with
grant funds. We compared those costs to the grant award documents and
the city’s accounting records to determine whether the costs were
allowable and supported.

       We found that for Grant Number 2007-DD-BX-0611, the City of
Atlanta’s reimbursements for its grant expenditures included $21,254 in
salaries and fringe benefits for a police officer who had not worked on the
grant. 5 A Police Department official told us those personnel costs were
charged to the grant by mistake. We question the $21,254 as
unallowable.

       For the other grants we reviewed, no personnel costs were charged
to the grants (Grant Numbers 2006-DD-BX-0266, 2006-DJ-BX-0616,
2007-DJ-BX-0307, and 2008-DJ-BX-0363) or no grant funds had been
drawn down (Grant Numbers 2008-DD-BX-0492 and 2009-SB-B9-1100). 6


        5
          According to the city’s accounting records, total unallowable personnel costs
charged to the grant for this officer were $27,555. However, the city had only requested
and received reimbursement for $21,254 of those costs.

        6
          Subsequent to our onsite review, the city drew down $2,609,452 in Recovery Act
grant funds.
                                         10
Other Direct Costs

      We also tested other direct costs charged to the grants to determine
whether those costs were allowable and supported by documentation. The
results of our testing for each grant are shown below.

      Grant Number 2006-DD-BX-0266. The city received a $197,446
award as a result of a congressional earmark. The city planned to use the
funds to teach conflict resolution skills to 1,200 City of Atlanta youths.
The city entered into a written agreement with the Southern Christian
Leadership Conference (SCLC) to implement the grant program. The
agreement stated that the SCLC was to submit monthly progress and
financial reports to the city and document its grant expenditures with
receipts, bills, invoices, and timesheets. The city was to reimburse the
SCLC for properly documented expenditures, “as determined by the city,”
and according to the approved budget shown in Exhibit 5.

                                    Exhibit 5:
                             Budget Approved by OJP
                       for Grant Number 2006-DD-BX-0266 7
                           Type of Expense              Budgeted Amount
                   Salaries and Fringe Benefits                  $106,500
                   Travel (mileage)                                 5,000
                   Equipment                                        6,000
                   Supplies                                        15,870
                   Contractors                                     45,000
                         8                                         19,076
                   Other
                   Total                                          $197,446
                  Source: Budget approved by OJP

       We tested $177,046 (23 transactions) the city reimbursed to the
SCLC, which is 100 percent of the grant funds spent. 9 For $108,241 of
the grant expenses (61.1 percent of the amount we tested), the city did
not provide adequate supporting documentation such as receipts and

          7
              The initial grant budget was amended in July 2008. Exhibit 5 is the amended
budget.

          8
          Other expenses include the cost of renting space for large training events
($1,000), rent for the program office ($8,076), telecommunications ($6,000), and meals
for program participants ($4,000).

          9
          Grant expenditures were less than the total amount of the award because
$20,400 in grant funds was not used.
                                            11
timesheets. We question the $108,241 as unsupported. All of these
questioned costs were for payments the city made to the SCLC as
reimbursement for its grant costs. The dates and individual amounts of
the $108,241 are presented in Appendix 3.

       We noted that the SCLC’s Executive Director claimed and was
reimbursed at least $1,835 for gasoline purchases. 10 The SCLC official
made the purchases at stations between the SCLC office in Atlanta and her
home in Opelika, Alabama. According to the city official responsible for
overseeing the grant, the SCLC does not have an office near the Executive
Director’s home. It is unclear to us how the gasoline purchases helped the
city achieve the program goal to teach conflict resolution skills to 1,200
City of Atlanta youths.

       Grant Number 2006-DJ-BX-0616. We tested $239,977
(25 transactions), which is 33.8 percent of the other direct costs charged
to this grant. For $56,438 of these costs (about 23.5 percent of the
amount we tested) the city provided no supporting documentation. We
question the $56,438 as unsupported. The dates and individual amounts
of these questioned costs are presented in Appendix 3.

       Grant Number 2007-DJ-BX-0611. We tested $57,639
(25 transactions), which is 88.2 percent of the other direct costs charged
to this grant. We found that $139 (less than 1 percent of the amount we
tested) was not supported by documentation. We question the $139 as
unsupported.

       Grant Number 2008-DJ-BX-0363. We tested $122,240
(5 transactions) which is 100 percent of the other direct costs charged to
this grant. We found $2,114 in grant funds were used for unallowable
costs. In June 2008, a City of Atlanta Police Officer received a $5,084
travel advance to attend an FBI training course, but was unable to
complete the course due to illness. In May 2009 the officer repaid $2,114
of the advance. However, the City of Atlanta claimed and was reimbursed
$5,084. We question $2,114 of the $5,084 as unallowable because it
exceeded the actual cost of the training.




        10
           The city reimbursed the SCLC for other travel costs, but the city did not provide
the supporting documentation for those expenses.
                                          12
       Grant Number 2008-DJ-BX-0307. The City of Atlanta made one
$359,013 disbursement to Fulton County for its share of the grant funds.
The transaction was supported by documentation including a cancelled
check.

      At the time of our audit, no grant funds had been drawn down for
Grant Numbers 2008-DD-BX-0492 and 2009-SB-B9-1100. Grant Number
2008-DD-BX-0492 was awarded September 11, 2008, and Grant Number
2009-SB-B9-1100 (Recovery Act grant) was awarded June 17, 2009.

       In summary, we tested $955,915 (79 transactions) in other direct
costs, which is 66.7 percent of the other direct costs charged to the
grants. We question $166,932 (about 21 percent of the amount we
tested) as unallowable ($2,114) or unsupported ($164,818). We
recommend the OJP remedy these questioned costs.

Matching Costs

      According to the OJP Financial Guide, Part III, Chapter 3, matching
funds for a grant project must be in addition to funds that would otherwise
be available. Grant recipients must maintain accounting records that
show the source, amount, and timing of all matching contributions. The
full matching share of costs must be obligated by the end of the award
period. We determined the City of Atlanta did not have a matching
requirement for the grants we audited.

Accountable Property

       According to the OJP Financial Guide, Part III, Chapter 6, property
acquired with federal funds should be adequately protected from loss, and
the grantee’s records should indicate the percentage of federal
participation in the cost of the property. For grants that had accountable
property items purchased with grant funds, we selected a judgmental
sample of items and physically verified the items and that they were being
used for grant related purposes.

       For Grant Number 2006-DJ-BX-0616, we tested 19 property items
valued at $81,758, which is 84.7 percent of the grant funds spent on
equipment. We physically verified 18 items valued at $78,783 and
determined that the items were being used for grant purposes. However,
the Police Department could not account for a $2,975 property item used
to enforce the speed limit. A Police Officer told us he did not know the
location of the item, which is assigned to a police officer who was on duty
                                    13
in Iraq. Consequently, we question as unsupported, $2,975 in grant funds
spent on property items.

     We recommend the OJP require the City of Atlanta to provide
documentation showing it has custody of the $2,975 property item or
remedy the cost of the item.

Grant Reporting

Financial Status Reports

      OJP monitored the financial aspects of grants through quarterly
Financial Status Reports (FSR). FSRs show the federal and local share of
grant expenditures, unexpended grant funds, and any program related
income. According to the OJP Financial Guide, quarterly FSRs were due 45
days after the end of each quarterly reporting period. Beginning October
1, 2009, the Federal Financial Report (FFR) replaced the FSR. FFRs are
due 30 days after the end of each calendar quarter. A final financial
report is due 90 days after the end of the grant period.

      We tested the four most-recently submitted FSRs to determine
whether the reports were submitted timely and whether expenditures
reported on the FSRs agreed with the City of Atlanta’s accounting records.
For the Recovery Act grant (Grant Number 2009-SB-B9-1100), we only
tested the three most-recently submitted FSRs because at the time of our
audit only three reports were required for that grant. Also, at the time of
our audit, the City of Atlanta had not drawn down any Recovery Act grant
funds and had no Recovery Act grant expenditures to report. 11

      As shown in Exhibit 6, 3 of 27 FSRs were submitted from 1 to 82
days late. Two of the reports were late because the person responsible for
preparing the reports had only been on the job for a short time and was
not aware that she was responsible for submitting the FSRs. City officials
could not explain why the other report was submitted late.




       11
          Subsequent to our onsite review, the city drew down $2,609,452 of the
Recovery Act award.
                                       14
                             Exhibit 6:
    Financial Status Reports the City of Atlanta Submitted Late
                           Quarterly
                          Reporting    Report Due   Date Report   Days
    Grant Number
                            Period        Date       Submitted    Late
                             Ended
   2006-DD-BX-0266        12/31/2007   02/14/2008   02/15/2008     1
   2008-DD-BX-0492        12/31/2008   02/14/2009   03/02/2009     16
   2009-SB-B9-1100        03/31/2009   05/15/2009   08/05/2009     82
  Source: Office of Justice Programs

       We also tested the accuracy of the FSRs by comparing the reports to
the city’s accounting records and found the FSRs were generally accurate.
For Grant Number 2007-DJ-BX-0307, the FSR for the quarter ended
December 31, 2008, was overstated by $54,331 when compared to the
accounting records. The city corrected the error when it submitted the
FSR for the quarter ended September 30, 2009.

      We found that the FSRs for the other grants were generally accurate
and submitted timely. However, for Grant Number 2006-DJ-BX-0616,
we could not verify the accuracy of the FSR for the quarter ended
December 31, 2008. That FSR included $8,861 expended by the City of
Atlanta and $147,925 expended by Fulton County, a subrecipient. The
City of Atlanta’s expenses agreed with its accounting records. However,
we could not test the accuracy of expenditures reported by Fulton County
because we did not have access to the county’s accounting records.

Progress Reports

       OJP monitors grant performance and accomplishments through the
submission of Categorical Assistance Progress Reports (Progress Reports).
Progress Reports are due semiannually on January 30 and July 30 of each
year. Grantees are required to submit a final grant Progress Report within
90 days after the end of the grant award period. Progress Reports must
include a comparison of goals to actual accomplishments for the reporting
period, reasons goals were not met or are not being met, and a corrective
action plan to resolve the problem. Absent timely, complete, and accurate
Progress Reports, OJP cannot effectively monitor progress toward meeting
grant objectives.

        We tested whether the City of Atlanta submitted timely, complete
and accurate Progress Reports. The results of our testing are described in
the following paragraphs.

                                       15
      Grant Number 2006-DD-BX-0266. As shown in Exhibit 7,
two Progress Reports were submitted 15 and 129 days late.

                                 Exhibit 7:
                     Progress Reports Submitted Late for
                      Grant Number 2006-DD-BX-0266
                                      Report DUE   DATE REPORT
              REPORTING PERIOD                                     DAYS LATE
                                         DATE       SUBMITTED
              01/01/07-06/30/07        07/30/07      12/06/07        129
              07/01/07-12/31/07        01/30/08      02/14/08         15
            Source: Office of Justice Programs

      A city official told us the reports were late because the city began
laying off hundreds of workers in December 2008, which put added
responsibilities on the remaining staff. However, the late reports were
due 10 months and 16 months before the layoffs began. The city official
also told us that the grant funds went to the SCLC and the city did not
receive grant funds for the administrative costs of preparing grant reports.
Nevertheless, the city is the primary recipient of the grant and is
responsible for meeting the fiscal and programmatic requirements of the
grant.

      Grant Number 2006-DJ-BX-0616. As shown in Exhibit 8,
two Progress Reports were submitted 62 and 339 days late and another
Progress Report was 163 days late as of June 10, 2010. 12

                            Exhibit 8:
       Progress Reports Not Submitted or Submitted Late for
                  Grant Number 2006-DJ-BX-0616
                                   Report DUE      DATE REPORT        DAYS
              REPORTING PERIOD
                                      DATE          SUBMITTED         LATE
           01/01/06-12/31/06        03/31/07         03/04/08         339
           01/01/08-12/31/08        03/31/09         06/01/09          62
           01/01/09-09/30/09        12/29/09       Not Submitted      163
         Source: Office of Justice Programs

     A Police Department official told us he did not know these reports
were due and did not submit them until he was told to do so by a
supervisor. As explained earlier in this report, the Police Department
Grants Analyst is responsible for preparing and submitting the Progress

       12
           The grant ended September 30, 2009. A final Progress Report was due 90
days thereafter, which was December 29, 2009. As of June 10, 2010, the final Progress
Report had not been entered into OJP’s grants management system.
                                          16
Reports. However, that position had been vacant for over 2 years.
When we began our audit the Grant Analyst had been on the job for about
1 month.

       For the five other grants we audited, six Progress Reports were
submitted from 6 to 114 days late. These late reports are shown in
Exhibit 9.

                             Exhibit 9:
          Progress Reports Submitted Late for Other Grants
                                                             Date
                                                Report                Days
       Grant Number       Reporting Period                  Report
                                               Due Date               Late
                                                          Submitted
     2007-DJ-BX-0307       01/01/08-12/31/08   03/31/09    06/01/09   62
     2007-DD-BX-0611 10/01/07-12/31/07         01/30/08    03/06/08   36
     2007-DD-BX-0611 01/01/08-06/30/08         07/30/08    11/21/08   114
     2008-DJ-BX-0363       10/01/08-12/31/08   01/30/09    06/01/09   62
     2008-DD-BX-0492 09/01/08-12/31/08         01/30/09    02/05/09    6
     2008-DD-BX-0492 01/01/09-06/30/09         07/30/09    08/25/09   26
    Source: Office of Justice Programs

       A city official and a Police Officer cited layoffs and failure to
understand the reporting requirements as the reasons for most of the late
reports. For Grant Number 2008-DD-BX-0492, a city official told us that
one Progress Report was late because a key administrator left her position
around the time the report was due. The other Progress Report was late
because a city official had not provided the necessary computer password
to the person responsible for submitting the report electronically. For the
Recovery Act grant, the first required Progress Report was submitted
timely.

      We also tested the completeness and accuracy of the Progress
Reports by comparing accomplishments described in those reports to
supporting documentation.

       Grant Number 2006-DD-BX-0266. This grant was based on a
collaborative effort between the City of Atlanta and the SCLC. We
reviewed the Progress Reports for the periods ended June 30, 2008, and
August 30, 2008, which stated that 756 and 257 youths, respectively, had
completed non-violence training. A city official told us that the SCLC was
attempting to locate the sign-in records for the training and would submit
those records when found. We received one sign-in sheet showing that
19 youths attended conflict resolution training on June 2, 2007. No
additional sign-in records were provided to us. Consequently, we consider
                                      17
the facts reported in these Progress Reports to be unsupported. As
discussed earlier, most of the grant funds the city reimbursed to the SCLC
were not supported by adequate documentation such as purchase orders,
receipts, or timesheets.

       Grant Number 2006-DJ-BX-0616. We reviewed the Progress
Report for the period ended December 31, 2008. The report stated that
52 percent of the grant funds were spent for helicopter maintenance,
advertising, training, supplies, and software. We reviewed the accounting
records and determined that the City of Atlanta spent the grant funds as
stated in the Progress Report.

        Grant Number 2007-DD-BX-0611. We reviewed the Progress
Reports for the periods ended December 31, 2008, and March 31, 2009,
which was the final report for the grant. The prior Progress Report stated
that, in cooperation with the Police Athletic League, the city had organized
several sports teams and purchased uniforms. The final report cited
numbers of arrests for various types of crimes. We asked city officials for
the supporting documentation for these reports, but no support was
provided. Consequently, we consider the facts reported in these Progress
Reports to be unsupported. The final Progress Report also stated that the
city had not completed the grant program as outlined in its grant
application because of layoffs and furloughs.

      Grant Number 2009-SB-B9-1100 (Recovery Act grant). We
reviewed the Progress Report for the period ended September 30, 2009.
The report stated that the city had set up its accounting system for
Recovery Act funds and was ready to begin disbursing grant funds to the
subrecipients. We did not test the accuracy of that Progress Report.

      In summary, Progress Reports we reviewed were generally not
submitted timely and reported activities were generally not supported by
documentation. Without timely, complete, and accurate Progress Reports
OJP cannot assess the effectiveness of its grant programs.

Quarterly Recovery Act Reports

       Section 1512 of the Recovery Act requires recipients of Recovery
Act funds to report their expenditures and jobs created or saved to
FederalReporting.gov. The initial report was due October 10, 2009, with
quarterly reports due 10 days after the close of each quarter thereafter.


                                   18
       We reviewed the Recovery Act reports for the quarters ended
September 30, 2009, and December 31, 2009, and found that both
reports were submitted by the due dates. In the report for the quarter
ended December 31, 2009, the City of Atlanta reported that it had
disbursed $2,198,798 to subrecipients and created 22 new positions.

       We confirmed that the City had correctly reported its expenditures,
but determined it had incorrectly reported the number of jobs saved. A
Police Department official provided a list of the positions being paid with
the grant funds, but the hire dates for three of those positions were after
December 31, 2009. Thus, the city incorrectly reported to
FederalReporting.gov, the number of jobs saved as of December 31, 2009.

Program Performance and Accomplishments

       Grant performance and accomplishments should be based on
measureable outcomes rather than on counting activities. The
Government Performance and Results Act provides a framework for
setting goals, measuring progress, and using data to improve
performance. To measure progress, grantees should establish a baseline
and a system for collecting and analyzing data needed to measure
progress. To evaluate program performance and accomplishments we
reviewed the grant applications, grant Progress Reports, and supporting
documentation maintained by the City of Atlanta and other recipients of
grant funds.

        Grant Number 2006-DD-BX-0266. This grant project was a
collaborative effort between the City of Atlanta and the SCLC to teach
conflict resolution skills to youths. We compared 7 of the 10 objectives
outlined in the grant application to the final Progress Report and
information provided during interviews with City officials. As
shown in Exhibit 10, the City of Atlanta did not meet, or could not show
that it had met, the grant objectives we tested.




                                  19
            Exhibit 10: Program Goals and Accomplishments
                    Grant Number 2006-DD-BX-0266
                                                   Was the goal met?
             Goal
                                                     Explanation
 Establish an international       No. A city official told us that this is one of the
 conflict resolution training     SCLC’s broader goals that were included in the grant
 headquarters in Atlanta,         application.
 Georgia in 2006.
 Provide 16 hours of conflict     Could Not Determine. A city official told us that
 resolution training to 1200      the SCLC was attempting to locate the sign-in sheets
 City of Atlanta youths.          from the conference and would provide those records
                                  when they were located. We received one sign-in
                                  sheet showing 19 youths attended conflict resolution
                                  training.
 Provide conflict resolution      No. A city official told us that this is one of the
 training annually to 2500        SCLC’s broader goals. There was agreement
 youths between the ages of       between the grantee and the SCLC to drop the 2,500
 13 and 25.                       figure from the grant proposal but it was not
                                  removed.
 Host a conflict resolution       Could Not Determine. A city official told us that
 summit.                          the SCLC reported that over 2,000 youths had
                                  attended a summit in 2009 and took a pledge of non-
                                  violence. However, neither the SCLC nor the city
                                  provided documentation to support this.
 Establish 50 international       No. A city official told us that this was not
 conflict resolution training     accomplished and was one of the SCLC’s broader
 centers by the year 2010.        goals.
 Execute a 3-year agreement       No. A city official told us that this was not
 with Mississippi Valley State    accomplished and was obviously outside of the city’s
 University to offer a Bachelor   jurisdiction. This was also one of the SCLC’s broader
 of Arts degree in conflict       goals.
 resolution.
 Host three regional              No. A city official told us that this was not
 conferences on nonviolence       accomplished and was reflective of the SCLC’s
 education and community          broader goals.
 change.
Source: Grant applications and    interviews with City of Atlanta officials

      A city official explained that most of these goals were not achieved
because the goals were part of the SCLC’s national goals.

       Grant Number 2007-DD-BX-0611. The purpose of the grant was
to: (1) increase police patrols in targeted areas to reduce violent crime
and gang activity, (2) increase justice information sharing with federal
agencies, (3) increase informational resources to community
organizations, and (4) offer alternative programs for at-risk youths. The
grantee stated in its Progress Reports that it had organized several youth
sports teams and purchased uniforms for participants. The city also
                                           20
reported the numbers of arrests it had made for various crimes and that it
had arrested an unknown number of gang members. However, numbers
of arrests do not address the impact that those arrests had on the goals of
the program. The Progress Reports did not provide sufficient information
to determine whether the city had increased justice information sharing or
information resources to community organizations.

       Grant Number 2008-DD-BX-0492. The purpose of the grant was to
reduce drug and gun violence by focusing on adult ex-offenders and
children of ex-offenders who have a history of criminal behavior. The
goals, objectives, and performance measures outlined in the grant
application are presented in Exhibit 11.

                               Exhibit 11:
              Goals, Objectives, and Performance Measures
                    Grant Number 2008-DD-BX-0492
 Goal 1: Identify participating ex-offenders
 Objective: Cross-         Task: Share data among          Performance Measure:
 reference information     agencies.                       Document all data sharing and
 on ex-offenders                                           provide data on all program
 returning to the                                          participants.
 targeted area.

 Goal 2: Allocate training and support services effectively
 Objective: Create         Task: Interview all             Performance Measure:
 service delivery and      participants and match with     Provide summary of all
 treatment plan for each   appropriate services.           treatment plans and tasks of
 participant.                                              coordinating agencies.

 Goal 3: Reduce crime and violence in the targeted geographic area
 Objective: Reduce         Task: Provide services and      Performance Measure:
 recidivism of             support necessary to            Track recidivism of
 participants by           discourage criminal behavior    participants and their children
 preventing them from      in participants, impact youth   and monitor criminal justice
 committing crimes.        behavior through monitored      system engagement, area
                           parental contact, and build     crime statistics, and Juvenile
                           family support.                 Court data.
Source: City of Atlanta grant application

      The most recent Progress Report submitted August 25, 2009, stated
that the city had created a 25 member task force to address Goal 2, but
because of hiring delays it was not on track to accomplish program goals.
In our judgment, Goal 3 – reducing recidivism by keeping ex-offenders
from re-offending – is the most important objective of the grant. The city
should determine the current rate of recidivism, the desired rate of

                                            21
recidivism, and establish a system for collecting and analyzing data to
measure progress. City officials agreed that the city needed to establish a
baseline and a system for collecting data and measuring progress.

       Grant Number 2006-DJ-BX-0616. The goals of the grant were to
provide the Police Department and the crime laboratory with various types
of training and equipment. In the most recent Progress Report submitted
June 1, 2009, the city reported that it had spent 52 percent of the grant
funds on helicopter maintenance, advertising, training, supplies, and
software. Based on the report, it appears the city was making progress at
achieving grant goals and objectives.

      For Grant Numbers 2007-DJ-BX-0307 and 2008-DJ-BX-0363, no
grant goals had been accomplished because the city had only recently set
up the proper accounts in the city’s financial system. We did not assess
program goals and accomplishments for the Recovery Act grant because
no grant funds had been drawn down at the time of our audit work.

       In summary, the City of Atlanta needs to implement a process for
evaluating grant goals and accomplishments. For some grants, the city
did not meet or could not show that it met grant goals and objectives. For
other grants, the city needed to identify measureable goals, establish a
baseline from which to measure progress, and implement a process for
collecting and analyzing data to track performance through the completion
of the grants.

Monitoring of Subrecipients

       According to the OJP Financial Guide, Part II, Chapter 3, direct
recipients of federal funds should monitor subrecipients’ financial
operations, records, systems, and procedures. Where the conduct of a
program is delegated to a subrecipient, the primary recipient is
responsible for all aspects of the program including oversight of
subrecipient spending and monitoring program goals and achievements
attributable to the use of grant funds. The city is responsible for
monitoring eight subrecipients for the 2009 Recovery Act grant fund
(Grant Number 2009-SB-B9-1100) and one subrecipient for four other
grants we audited.

       We found that the city did not monitor its subrecipients and had no
procedures for doing so. Consequently, 61 percent of the reimbursements
to one subrecipient were not adequately supported by purchase orders,
receipts, timesheets, or other supporting documentation. For the 2009
                                   22
Recovery Act grant, the city received 5 percent of the award amount to
hire a Project Administrator to oversee eight subrecipients of Recovery Act
funds. On June 15, 2010, a city official told us that a Project
Administrator had been hired and was scheduled to begin work the
following week.

       In December 2009, the OJP conducted a site visit to the City of
Atlanta and issued a report, which also stated that the city had no
procedures for monitoring subrecipients. The report stated that the city
provides subrecipients with copies of the award documentation, but has no
way of knowing whether the subrecipients are complying with grant
requirements. The OJP advised city officials to implement procedures for
subrecipient monitoring and reporting. The report also stated that the city
had not hired a Project Administrator for the Recovery Act grant. On
June 15, 2010, a city official told us its newly hired Project Administrator
was scheduled to begin work the following week.

Conclusion

       The City of Atlanta generally complied with the requirements
pertaining to drawdowns. However, we found weaknesses in the areas of
internal controls, supplanting, grant expenditures, accountable property,
grant reporting, program performance and accomplishments, and
monitoring subrecipients. Specifically, we found the following.

   •   The city did not have adequate staff with the training and experience
       to properly manage the grants.

   •   The city spent $188,186 in grant funds for costs that are
       unallowable or unsupported.

   •   The city could not account for a $2,975 property item bought with
       grant funds.

   •   Three of 27 Financial Status Reports were submitted from 1 to 82
       days late.

   •   Eleven of 19 Progress reports were submitted from 6 to 339 days
       late.

   •   The city incorrectly reported to FederalReporting.gov, the number of
       jobs created or saved with Recovery Act funds.

                                   23
     •   The city did not meet, or could not show that it met, most grant
         goals and objectives.

     •   The city did not monitor subrecipients and had no procedures for
         doing so. One city official told us the city was not responsible for
         monitoring subrecipients.

      Because of these weaknesses, we are concerned that the city may
not be able to properly manage the $16.9 million it was awarded under
the 2009 Recovery Act.

Recommendations

We recommended that OJP:

1.       Remedy the $21,254 in unallowable personnel costs charged to
         Grant Number 2007-DD-BX-0611.

2.       Remedy the $108,241 in unsupported other direct costs charged to
         Grant Number 2006-DD-BX-0266.

3.       Remedy the $56,438 in unsupported other direct costs charged to
         Grant Number 2006-DJ-BX-0616.

4.       Remedy the $139 in unsupported other direct costs charged to
         Grant Number 2007-DJ-BX-0611.

5.       Remedy the $2,114 in unallowable other direct costs charged to
         Grant Number 2008-DJ-BX-0363.

6.       Require the city to provide documentation showing that it has
         custody of the $2,975 property item bought with grant funds or
         remedy the $2,975.

7.       Ensure the city submits accurate and timely FFRs.

8.       Ensure the city submits complete, accurate and timely Progress
         Reports and that the reported facts are supported by
         documentation.

9.       Ensure the city correctly reports the number of jobs created or
         saved to FederalReporting.gov.


                                      24
10.   Ensure the city implements a process for identifying measureable
      goals and objectives and a process for collecting and analyzing data
      to track performance through the completion of the grants.

11.   Ensure the city implements procedures for monitoring subrecipients
      to ensure they meet the fiscal and programmatic requirements of
      the grants.




                                  25
                                                             APPENDIX 1

              OBJECTIVES, SCOPE, AND METHODOLOGY

       The objective of the audit was to determine whether
reimbursements claimed for costs under the grants were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the grants and to determine program
performance and accomplishments. We reviewed performance pertaining
to internal controls; drawdowns; budget management and control;
supplanting; matching costs; grant expenditures including personnel and
other direct costs; property management; reporting including financial,
progress, and quarterly Recovery Act reports; program performance and
accomplishments; and monitoring of subrecipients.

      We conducted our audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient and appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

      Our audit scope covered the 2009 Byrne JAG Recovery Act grant and
six earlier Byrne JAG grants that had sufficient activity to test the
grantee’s management of grants and subrecipients. We tested compliance
with what we consider to be the most important conditions of the grants.
Unless otherwise stated in our report, the criteria we audit against are
contained in the Office of Justice Program’s Financial Guide, Office of
Management and Budget Circulars, the 2009 American Reinvestment and
Recovery Act, and specific grant program guidance.

       In conducting our audit, we performed sample testing in
drawdowns; grant expenditures, including personnel and other direct
costs; FSRs; Progress Reports; property management; program
performance and accomplishments; and monitoring of subrecipients. In
this effort, we employed a judgmental sampling design to obtain broad
exposure to numerous facets of the grants we reviewed, such as dollar
amounts or expenditure category. We selected judgmental sample sizes
for the testing of each grant. This non-statistical sample design does not
allow projection of the test results to the universe from which the samples
were drawn.


                                  26
      In addition, we reviewed the timeliness and accuracy of FSRs,
Progress Reports, and Recovery Act reports and compared performance to
grant objectives. We did not assess the reliability of the financial
management system as a whole.




                                27
                                                        APPENDIX 2

             SCHEDULE OF DOLLAR-RELATED FINDINGS

                  Description                  Amount      Page
Unsupported Costs:


Grant 2006-DD-BX-0266 (Other Direct Costs)       108,241     12

Grant 2006-DJ-BX-0616 (Other Direct Costs)        56,438     12

Grant 2007-DD-BX-0611 (Other Direct Costs)          139      12

Grant 2006-DJ-BX-0616 (Accountable Property)       2,975     13

      Total Unsupported Costs                  $167,793


Unallowable Costs:


Grant 2007-DD-BX-0611 (Personnel Costs)           21,254     10

Grant 2008-DJ-BX-0363 (Other Direct Costs)         2,114     12

      Total Unallowable Costs                   $23,368


      Total Dollar-Related Findings            $191,161




                                  28
                                                                        APPENDIX 3

      UNALLOWABLE AND UNSUPPORTED OTHER DIRECT COSTS
 Transaction       Check       Transaction       Amount          Amount       Notes
     Date         Number         Amount       Unallowable Unsupported
 Grant Number 2006-DD-BX-0266
  Not shown       Unknown        $11,228.09                      $11,228.09    (1)
   03/28/08       Unknown          6,573.49                        6,573.49    (1)
   09/30/08       Unknown          5,733.89                        5,733.89    (1)
   05/07/08       Unknown         20,554.27                        3,380.28    (2)
  Not shown       Unknown         14,705.05                        5,880.37    (2)
   03/28/08       Unknown         12,255.00                       12,255.00    (1)
  Not shown       Unknown          9,542.05                        8,734.51    (2)
   06/04/08       Unknown          8,358.74                        4,200.29    (2)
  Not shown       Unknown          8,088.36                        8,088.36    (2)
  Not shown       Unknown          7,590.43                        5,421.99    (2)
   05/07/08       Unknown          7,257.92                        3,303.28    (2)
   07/03/08       Unknown          6,898.67                        3,229.50    (2)
   11/16/07       Unknown          6,779.89                        5,629.65    (2)
  Not shown       Unknown          6,414.82                        6,414.82    (2)
   12/01/07       Unknown          6,314.23                        5,460.88    (2)
   05/07/08       Unknown          6,260.86                          673.00    (2)
   03/28/08       Unknown          5,864.55                        5,472.22    (2)
   05/06/08       Unknown          5,835.10                        1,815.10    (2)
   05/07/08       Unknown          4,706.68                        1,472.00    (2)
   06/04/08       Unknown          4,695.97                          673.00    (2)
   07/13/08       Unknown          4,692.40                          673.00    (2)
   05/06/08       Unknown          3,800.50                          673.00    (2)
   08/13/08       Unknown          2,894.93                        1,255.77    (2)
                    Subtotal                                      $108,241
 Grant Number 2006-DJ-BX-0616
   12/30/07       Unknown        $25,627.61                      $15,445.51    (2)
   12/30/07       Unknown         16,294.55                       15,094.55    (2)
   12/30/07       Unknown         15,660.10                          225.00    (2)
   12/30/07       Unknown          8,088.83                        8,088.83    (1)
   11/06/07       Unknown          6,669.00                        6,669.00    (1)
   11/06/07       Unknown          4,294.00                        4,294.00    (1)
   05/24/09       Unknown          2,685.00                        2,685.00    (1)
   11/14/08       Unknown          2,000.00                        2,000.00    (1)
   03/29/09       Unknown          1,935.96                        1,935.96    (1)
                    Subtotal                                       $56,438
 Grant Number 2007-DD-BX-0611
   04/04/08       Unknown            138.59                          138.59    (1)
 Grant Number 2008-DJ-BX-0363
   06/14/09       Unknown         $5,084.00         2,114.00
  Total Questioned Costs                             $2,114       $164,818
Source: Office of the Inspector General analysis of city records



                                         29
Notes:

(1) The city did not provide documentation to support the transactions. Supporting
    documentation should include invoices or receipts for the goods or services paid for
    and timesheets for personnel and fringe benefit costs. A request from a subrecipient
    for reimbursement of grant costs must include the proper supporting documentation.

(2) The city only provided partial documentation to support the transactions. Supporting
    documentation for transactions should cover all costs claimed.

(3) The city claimed and was reimbursed for an employee whose salary should not have
    been charged to this grant.




                                        30
                                                                                                                APPENDIX 4

THE CITY OF ATLANTA’S RESPONSE TO THE DRAFT AUDIT REPORT




                               CITY OF ATLANTA
  KAS1M REED                                       DEPARTMENT OF FINANCE                                    ROOSEVELT COUNCIL, JR.
                                                  BUREAU OF G RANT SERVICES                                  CHIEF FINANCIAL OFf.:::eR, IIlTERlM
    MAYOR
                                                                                                              ROC@ATLANTAGA.GOV
                                               68 MITCHELL STREET , SoN, SUITE 8100
                                                  ATlANTA, GEORGIA 30335-0315
                                            TEL: (404) 330-6442 •         fAX: (404) 658·7885
                                                                                                                  lEE HANNAH
                                                                                                                    DIRecToR
                                                                                                             lHANNAH@ATVlKTAGA.Gt::N



          July 23, 2010


          Mr. Ferris B. Polk
          Regional Audit Manager
          Atlanta Region al Audit Office
          U.S. Department of Justice        d,:.;~~2f¥i:~Y~~~~~~:>
          75 Spring St. Suite 1130                  1\ 1'_ ' J / ,'v _. .,~.t.;-}-.~:".
                                         ~~'>~.J.- ~~. ,


          :::::,':,:om< ;:~~~ ~• ~~~.
          SUBJECT: AUDIT R .•              '::~~ardByrKe;Nle'fi,l)rial JU~~ ·                         ram
                               :~;lt,      .",,', i;;:.~ _'~~:, ,<-- ~.,::f :;·:~i;t;/- "':" ;,.~",
                                                          _
          Attached are the lIiI;UJagem!ii)t REispo'               Yi t~:f"l£
                                                                           di
          Byrne Memorial .. ' ~;As'sr~ta:l!ce . .                . . gr~w;ttB
           me if you have q        ;sj-k·n'e'ed:,ll:fd "
                                                i                atirtfdr-n1i1t,bli.
                                                                               i
           Sincere ly,                                        ",;,'




       ~\~~~1~}
           Office of Grant Services          ~<~~~:~~::.-~:~;t:i~
           Cc:     Tracey Curry, Senior Budget Manager
                   Atlanta Police Department
                   Arthur Cole, Senior Management Analyst
                   Office of the Mayor-Human Services

           Attachment




                                                                 31

RESPONSE TO RECOMMENDATIONS:
                                                                                                  .



  1.   Remedy the $21,254 in unallowable personnel costs charged to Police Grant Number
       2007-DD-BX-0611.

       APD Management Response - The aforementioned expenses were charged to the grant
       in error. APD submitted the proper documents to the Department of Human Services
       and requested the correction be made by DOF in a post accounting period adjustment.

  2. Remedy the $108,241 in unsupported other direct costs charged to Grant Number 2006-
       DD-BX-0266.

       Human Services Management Response - City staff has contacted SCLC officials and
       with their help believe we can provide supporting documentation for the expenditures.          !




  3. Remedy the $56,438 in unsupported other direct costs charged to Police Grant Number
       2006-DJ-BX-0616.
                                                                                                  I
       APD Management Response - City documentation does not support this audit finding.


   4. Remedy the $139 in unsupported other direct costs charged to Grant Number 2007-DJ­
       BX-0611.

       APD Management Response - City documentation does not support this audit finding.

   5. Remedy the $2,114 in unallowable other direct costs charged to Police Grant Number
       2008-DJ-BX-0363.

       APD Management Response - City documentation does not support this audit finding.


   6. Require the City to provide documentation showing that it has custody of the $2,975
      property item bought with grant fund s or remedy th e $2,975

       APD Management Response - City is in the process of locating this property item.
   7. Ensure the City submits accurate and timely FSRs.

       Grant Management Response - Enhanced procedures have been implemented
       ensuring that the Grant accountant is added as a point of contact by the grant receiving
       department.




                                          32

8. Ensure the City submits complete, accurate and timely Progress Reports and that the
   reported facts are supported by documentation.

   APD Management Response - An error was made due to internal APD reporting that
   caused the information to be recorded in errOr to the reporting website. The error was
   caught and corrected by APD. The information being reported currently is correct.


9. Ensure the City correctly reports the number of jobs created or saved to
   FederaIReporting.gov.

   APD Management Response - The problem has since been corrected due to the hiring
   of competent staff. APD is current with all Federal Reporting to date.


10. Ensure the City implements a process for identifying measureable goals and objectives
    and a process for collecting and analyzing data to track performance through the
   completion of the grants.

   APD Management Response - ADP has since hired adequate staffing to remedy this
    problem. The duties of the newly hired Grants Analyst will include but is not limited to
    aSSisting in the preparation of policies and procedures for the monitoring of the grant
    funds and expenses, implement a process for measuring goals and objectives ofthe
    grant, monitoring the sub-recipients to ensure compliance, etc. These responsibilities
    will be enforced by APD's Senior Budget Manager.



11. Ensure the City implements procedures for monitoring sub-recipients to ensure they
    meet the fiscal and programmatic requirements of the grants.

    APD Management Response - Procedures are being enhanced to ensure sub-recipients
    are monitored to en sure they meet the fiscal and programmatic requirements of the
    grants.




                                       33

                                                                                                 APPENDIX 5

     OJP’S RESPONSE TO THE DRAFT AUDIT REPORT

                                                    U.S. Depa rtment of Justi ce

                                                    Office ofJus/ice       I'rogumr~'


                                                   Ojfi('l! of Aut/iI,   A~'~;:ssmenl,   and Management




MEMORANDUM TO:                Ferris B. Polk
                              Regional Audit Manager
                              Office of the Inspector General
                              Atlanta Regional Audil Office

FROM:                         Maureen A. Hennebcrg
                              Director

SUBJECT:                      Response to the Draft Audit Repon, Office of Jus/icc Programs.
                              Edll'au/ Byrne ,"';:moria/ Justice Assistance Gran/s Awarded /0 Ihe
                              City of At/ama, Georgia

This memorandum is in response 10 your correspondence, dated June 18, 20 10. trdnsm itling the
subjC(:t draft audit report for the City of Atlanta, Georgia (City). We consider the subjcct repon
resolved and requesl written acceptance of this action from your office.

The report contains 11 recommendations and $19 1,1 6\ in questioned costs. For ease of review.
the draft audi t report recommendations are restated in bold and are followed by the Office of
Justice Programs (OJP) response.

I.     We recommeml th a t OJP r emedy the S2 1,254 in unallowa ble personnel costs
       charged to gra nt number 2007-DD-BX-0611 .

       We agree with the recommendation. We will coordinate wi(h (he City to remedy the
       $2 J ,254 in questioned costs related to unallowable personnel costs charged to grant
       number2007-DD-8X-061\.

2.     Wc recommend that O,W r emedy t he S108,241 in unsupport ed other direct costs
       charged to gr a nt number 2006-DI)-RX-0266.

       We agree with the recommendation. We will coordinate with the City to remedy the
       $108.241 in questioned costs related to unsupported other direct costs charged to grant
       number 2006-DD·8X·0266.




                                            34

3.   We recommend tbal OJP remedy the $56,438 in unsupported other direel costs
     ebarged 10 grant number 2006-D.f-RX-0616.

     We agree with the recommendation. We will coordinate witb the City 10 remedy the
     $56,348 in questioned costs related to unsupported other di rect costs charged to grant
     numbt:r 2006-DJ-BX-0616.

4.   We recommend tbat OJP rrruetly the S139 in unsupported otber direct costs
     charged to grant number 2007-D.I-8X-0611 .

     We agree with the recommendation. We will coordinate with the City to remedy the
     $139 in questioned costs related to unsupported other direct costs charged to grant
     numbt:r 2007-DJ-BX-0611.

5.   We recommend tha t OJP remedy the $2, 114 in unallowa ble otber direct costs
     charged to grant number 2008-DJ-8X-0363.

     We agree with the recommendation. We will coordinate with the City to remedy the
     $2, 114 in questioned costs related to unallowable other dirt"Ct costs charged 10 grant
     number 2008-DJ-BX-0363.

6.   We recommend that OJP requires the City to provitle documentation sbowing tbat
     it has custod y or the S2,975 property item bought with grant runds or re med y the
     S2,975.

     We agree with the reco mmendation. We will coordinate with the City 10 obtain
     documentation showing thaI it has custody oflhe $2,975 property item bought with grant
     funds or remedy the $2,975.

7.   We recommend that OJP ensures that tbe City submits accurate and tim ely Fedtral
     Financial Reports (t' FRs).

     We agree with the recommendation. We will coordinate with the City to obtain a copy of
     procedures implemented to ensure that FFRs are accurate and timely submitted.

8.   We recommend that OJP ensures that the City submits complete, accurate and
     timely Progress Reports a nd tbat the reported facts are supported by
     documentation.

     We agree with the recommendation. We will coordinate with the City to obtain a copy of
     procedures implemented to cnsure that Progress Reports are complete, ac(;urate, and
     limely submitted, and are supported by documentation.




                                         35

9.     We recommend that OJP ensures that tbe City correctly reports the number of jobs
       created or saved to Fede raIReporting.gov.

       We agree wit h the recommendation. We will coordinate with the City to obtain a copy of
       procedures implemented to ensuft! that the City correctly reports the number of jobs
       created or saved to FedcraIReporting.gov.

IO.    We recommcnd that OJP ensures that the City implements a process for identifying
       measurable goals and objectives, and a process for collccting and analyzing dahl to
       track performance througb tbe completion of the gra nts.

       We agree with the reco mmendation. We will coordinate with the City to obtain a copy of
       procedures implemented to ensure that a process for identifying measurable goals and
       objectives, and a process for collecting and analyzing data to track performance through
       the completion of the gnlD ts, is established.

IL     We recommend that OJP ensures thai the City implements procedures for
       monitoring subrecipienfs to ensure they meet the fiscal and programmatic
       requirements of the grants.

       We agree with the Te(;ommendation. We will coordinate with the City to obtain a copy of
       procedures implemented to ensure that subre!;ipients are monitored to meet the fiscal and
       programmatic requirements of the grants.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional infonnation, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

ec:    leffery A. Haley
       Deputy Director, Audit and Review Division
       Offiee of Audit, As~essment, and Management

       Amanda LoCicero
       Budget Analyst
       Bureau of Justice Assistance

       Ania Dobr;r;mska
       Program Manager
       Bureau of Justice Assistance

       Richard P. Theis
       Assistant Director
       Audit Liaison Group
       Justice Management Division




                                               J




                                          36

cc:   OJ P Executive Secretariat
      Control Number 20101200




                                     4




                                   37

                                                              APPENDIX 6

                ANALYSIS AND SUMMARY OF ACTIONS
                 NECESSARY TO CLOSE THE REPORT

     The OIG provided a draft of this report to the City of Atlanta and OJP.
The City of Atlanta’s comments are incorporated in Appendix 4 and OJP’s
comments are incorporated in Appendix 5. The following provides the OIG
analysis of the responses and summary of actions necessary to close the
report.

Analysis of the City of Atlanta’s Response to the Draft Audit Report

     In its response to the draft report, the city provided an update on the
status of corrective actions taken or planned for 8 of 11 recommendations.
However, for the remaining recommendations the city stated that its
documentation does not support our audit finding. We address those three
recommendations below.

      Recommendation Number 3 – We questioned $56,438 because the
city did not provide adequate supporting documentation for these
expenditures. Details of these unsupported costs are presented in
Appendix 3 of this report. Because the city provided no additional
supporting documentation along with its response to the draft report, the
questioned costs remain unsupported.

      Recommendation Number 4 – We questioned $139 as unsupported.
According to the city’s accounting records, the expenditure was for
advertising. Because the city provided no supporting documentation along
with its response to the draft report, the questioned costs remain
unsupported.

     Recommendation Number 5 – We questioned $2,114 as unallowable.
According to the city’s accounting records, a police officer received $5,084
in advance for a training course and associated travel costs. The officer
was unable to complete the course and subsequently repaid $2,114 of the
advance. However, the $2,114 repayment was not added back to the grant
as funds available for use. Because the city provided no additional
documentation along with its response to the draft report, the questioned
costs remain unallowable.




                                   38
Analysis of OJP’s Response to the Draft Audit Report

       In its response to the draft audit report, OJP stated that it agreed with
all of our recommendations and will coordinate with the city to remedy the
questioned costs and obtain copies of documentation needed to close other
recommendations.

Status and Summary of Actions Necessary to Close the Report

Recommendation:

  1. Resolved. We recommended that OJP remedy $21,254 in
     unallowable personnel costs charged to Grant Number
     2007-DD-BX-0611. In its response to the draft report, the city stated
     that these expenses were charged to the grant by mistake and that it
     had asked the Department of Finance to make an accounting
     adjustment for the error. OJP agreed with our recommendation and
     said it would coordinate with the city to remedy the $21,254 we
     questioned. This recommendation can be closed when we receive
     documentation showing the city has made the appropriate correction
     to its accounting records or when the questioned costs have been
     otherwise remedied.

  2. Resolved. We recommended that OJP remedy $108,241 in
     unsupported costs charged to Grant Number 2006-DD-BX-0266. In
     its response to the draft report, the city stated that it could provide
     supporting documentation for these questioned costs. OJP agreed
     with our recommendation and said it would coordinate with the city to
     remedy the $108,241 we questioned. This recommendation can be
     closed when the $108,241 has been remedied.

  3. Resolved. We recommended that OJP remedy $56,438 in
     unsupported costs charged to Grant Number 2006-DJ-BX-0616.
     In its response to the draft report, city officials stated that its
     documentation does not support this finding, but it did not provide
     copies of those documents. OJP agreed with our recommendation
     and said it would coordinate with the city to remedy the these
     questioned costs. This recommendation can be closed when the
     $56,438 has been remedied.

  4. Resolved. We recommended that OJP remedy $139 in unsupported
     costs charged to Grant Number 2007-DJ-BX-0611. In its response to
     the draft report, the city stated that its documentation does not
                                    39
   support this finding, but it did not provide copies of those documents.
   OJP agreed with our recommendation and said it would coordinate
   with the city to remedy the $139 we questioned. This
   recommendation can be closed when the $139 has been remedied.

5. Resolved. We recommended that OJP remedy $2,114 in
   unallowable costs charged to grant number 2008-DJ-BX-0363. In
   its response to the draft audit report, the city stated that its
   documentation does not support this finding, but it did not provide
   copies of those documents. OJP agreed with our recommendation
   and said it would coordinate with the city to remedy the $2,114 we
   questioned. This recommendation can be closed when the $2,114
   has been remedied.

6. Resolved. We recommended that OJP require the city to provide
   documentation showing it has custody of the $2,975 property item
   bought with grant funds or remedy the $2,975. In its response to the
   draft report, the city stated that it was in the process of locating the
   property item. OJP agreed with our recommendation and said it
   would coordinate with the city to obtain documentation showing that
   it has custody of the $2,975 property item or remedy the $2,975.
   This recommendation can be closed when we receive documentation
   showing the city has custody of the property item or the $2,975 has
   been remedied.

7. Resolved. We recommended that OJP ensure the city submits
   accurate and timely Federal Financial Reports (FFRs). In its response
   to the draft report, the city stated that it has added the Grant
   Accountant as a point-of-contact for the office that receives the grant.
   OJP agreed with our recommendation and said it would coordinate
   with the city to obtain a copy of procedures implemented to ensure
   the city submits accurate and timely FFRs. This recommendation can
   be closed when we review the city’s procedures that ensure it submits
   accurate and timely FFRs.

8. Resolved. We recommended that OJP ensure the city submits
   complete, accurate and timely Progress Reports and that the reported
   facts are supported by documentation. In its response to the draft
   report, the city stated that it had made errors when it submitted
   reports and that the errors have been corrected. OJP agreed with our
   recommendation and said it would coordinate with the city to obtain a
   copy of procedures implemented to ensure that Progress Reports are
   complete, accurate, submitted timely, and supported by
                                   40
    documentation. This recommendation can be closed when we review
    the city’s procedures that ensure Progress Reports are complete,
    accurate, submitted timely and supported by documentation.

9. Resolved. We recommended that OJP ensure the city correctly
   reports the number of jobs created or saved to
   FederalReporting.gov. In its response to the draft report, the city
   stated that the problem of incorrect reporting has been corrected by
   the hiring of competent staff and that the Atlanta Police Department
   is current with all federal reporting. OJP agreed with our
   recommendation and said it would coordinate with the city to obtain a
   copy of procedures implemented to ensure that the city correctly
   reports the number of jobs created or saved to FederalReporting.gov.
   This recommendation can be closed when we review procedures that
   ensure the city accurately reports job data to FederalReporting.gov.

10. Resolved. We recommended that OJP ensure the city implements
    procedures for identifying measureable goals and objectives, and a
    process for collecting and analyzing data to track performance
    through the completion of the grants. In its response to the draft
    report, the city stated that the newly hired Grants Analyst will be
    responsible for implementing measureable grant goals and objectives
    and monitoring subrecipients and that these responsibilities will be
    enforced by the Senior Budget Manager. OJP agreed with our
    recommendation and said it would coordinate with the city to obtain a
    copy of procedures implemented to ensure the city has procedures
    for: (1) identifying measureable goals and objectives, (2) collecting
    and analyzing performance data, and (3) tracking performance
    through the completion of the grants. This recommendation can be
    closed when we review the city’s procedures for identifying
    measureable grant goals and objectives, collecting and analyzing
    performance data, and tracking program performance through the
    completion of the grants.

11. Resolved. We recommended that OJP ensure the city implements
    procedures for monitoring subrecipients to ensure they meet the
    fiscal and programmatic requirements of the grants. In its response
    to the draft report, the city stated that it had enhanced its procedures
    to ensure that subrecipients meet the fiscal and programmatic
    requirements of the grants. OJP agreed with our recommendation
    and said it would coordinate with the city to obtain a copy of
    procedures that ensure subrecipients meet the fiscal and
    programmatic requirements of the grants. This recommendation can
                                   41
be closed when we review the city’s procedures for monitoring
subrecipients.




                            42
